Department of Health and Human Services

        OFFICE OF 

   INSPECTOR GENERAL 





IN-HOSPITAL VOLUNTARY PATERNITY 

    ACKNOWLEDGMENT   PROGRAM 


    Hospital Experiences in Sample States




                      JUNE GIBBS BROWN
                      Inspector General

                           AUGUST 1997
                          OEI-06-95-00161
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This statutory
mission is carried out through a nationwide network of audits, investigations, and inspections
conducted by three OIG operating components: the Office of Audit Services, the Office of
Investigations, and the Office of Evaluation and Inspections. The OIG also informs the Secretary of
HHS of program and management problems and recommends courses to correct them.

                  OFFICE OF EVALUATION AND INSPECTIONS

The OIG’s Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and
the public. The findings and recommendations contained in these inspection reports generate rapid,
accurate, and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI’s Dallas Regional Office prepared this report under the direction of Chester B. Slaughter,
Regional Inspector General.

Project Staff included:


DALLAS REGION                                                   HEADQUARTERS

Ruth Ann Dorrill, Project Leader 
                              Ann O’Connor, Program Specialist 

Michelle Adams, Ph.D 
                                          Linda Moscoe 

Karen Erickson, Intern 
                                        Barbara Tedesco 

Lisa Lesh, Intern 

Marnette Robertson 

Sarah Taylor 

Nancy Watts 


For additional copies of this report, please contact the Dallas Regional Office at (800) 8488960.
Department of Health and Human Services

        OFFICE OF 

   INSPECTOR GENERAL 





IN-HOSPITAL VOLUNTARY PATERNITY 

    ACKNOWLEDGMENT   PROGRAM 


    Hospital Experiences   in Sample States




                       JUNE GIBBS BROWN
                       Inspector General

                            AUGUST 1997
                           OEI-06-95-00161
                EXECUTIVE                            SUMMARY

PURPOSE

This report describes birthing hospital capability and progress in administering voluntary
paternity acknowledgment programs in 15 sample States.

BACKGROUND

Federal law requires that States implement hospital-based programs for the voluntary
acknowledgment of paternity, seeking to facilitate at-birth paternity establishment for children
born to unmarried parents. Many States have long administered hospital-based programs,
and even now the voluntary acknowledgment process may be administered largely at State
discretion, but the intent of the Federal mandates is to make paternity acknowledgment part
of the birth registration process. This places a great responsibility on birthing hospital staff
to assist unmarried parents in voluntarily acknowledging paternity. Our facility-level study
describes the experiences of birthing hospitals in implementing voluntary acknowledgment
programs and the actions of State agencies to assist these hospitals. Comprehensive mail
surveys were completed by child support and vital records agencies in 15 sample States, and
by 429 birthing hospitals within those States. Our sample of States includes a broad
spectrum of implementation experiences, but generally focuses on States which are farther
along in implementation than the average of their national counterparts.

FINDINGS

Birthing hospitals in sample States are offering acknowledgment services, and State child
support and vital records agencies believe hospitals are capable and willing to administer
paternity programs. Also, both agencies report largely effective interaction with each other
and progress toward smoother documentation procedures. However, in-hospital voluntary
paternity acknowledgment programs could be improved by further State agency effort,
including enhanced collaboration with hospitals, Statewide implementation of hospital
assessments, and use of more interactive training and outreach methods.

OverallProgram Rating

Nearly all birthing hospitals offer voluntary paternity acknowledgment services, and hospital
staff are generally positive, viewing the programs as helpful to parents.

Over half of hospitals report the program is both simple to administer and easy for parents to
understand, and most child support and vital records agencies rate hospital staff as good in
their ability and effort to administer the programs.




                                                 i
Monitoring of HospitalParticipation

Although hospitals report widespread program participation, only --of the 15 sample child
support agencies monitor hospital participation.

Most hospital monitoring includes only the collection of data, and not the evaluation of
process, and few child support agencies offer feedback to hospital staff.

RelationshipsBetween Key Players

Most hospitals report effective relationships with vital records, and are fairly positive about
child support agencies but often have trouble identifying them.

Child support agencies which pay hospitals for completed paternity acknowledgments report
this enhances hospital relationships, but hospital respondents appear largely unaffected by
payment.

Child Support and VitalRecords Agency Assistance to HospitalStaff and Parents

Not all hospitals are provided with staff training materials to assist them in the
acknowledgment process, and most hospitals rely primarily on brochures.

Child support agencies are not proactive in determining hospitals’ continuing training needs,
with nearly half relying on hospitals to request more materials.

Some child support agencies and hospitals conduct follow-up after discharge with parents
who do not acknowledge paternity during their hospital stay.

Nearly all child support agencies in sample States report educational outreach efforts to
parents, but for fewer hospitals report such materials are available and utilized, and only a
quarter of hospitals conduct prenatal outreach.

AdditionalProgram Constraints

The quality of hospital services is limited somewhat by internal hospital factors such as
insufficient staffing levels and over-reliance on birth certificate worksheets.

Half of child support agencies and a quarter of hospitals requiring notarization of paternity
documents report it negatively impacts acknowledgment.

There is a lack of clarity about the role of hospital staff in communicating with parents,
particularly as it concerns their serving as advocates of paternity acknowledgment.

Factors external to hospitals, such as poor parent relationships, may also limit
acknowledgments, although many fathers visit during the mother’s stay.



                                                 ii
RECOMMENDATIONS

Overall, we find hospitals are supportive of the paternity acknowledgment effort, appear to
recognize its importance, and are increasingly capable of successfully conducting
acknowledgment procedures. However, State agencies, particularly child support, could do
more to assist hospitals in their administration of the voluntary acknowledgment process.
Based on our findings, we recommend the Office of Child Support Enforcement (OCSE) take
the following actions to improve the State operation of in-hospital paternity acknowledgment
programs. The first and second recommendations duplicate those found in a companion
report on nationwide program implementation:

AGENCY INTERACTION ANLl DIWSION OF DUTIES.                Promote interagency
collaboration, and assure child support and vital records agencies more clearly define
their respective agency roles. OCSE should provide technical assistance to enhance agency
interaction and encourage joint problem-solving among child support and vital records
agencies, and should consider encouraging States to draft a flexible interagency agreement
which would make clear the procedures and activities specific to each agency.

STATEWDE HOSPITAL ZMPLEMENTATZONAND ASSESSMENT.                       Monitor Statewide
hospital implementation by assuring all States collect acknowledgment data for each
birthing hospital and by encouraging development of hospital assessment procedures.
OCSE should provide technical assistance to States in creating hospital assessment
procedures, and should consider developing a uniform reporting mechanism for States to
monitor birth and acknowledgment data per hospital and to report hospital assessment
procedures and outcomes.

DEFINITZON OF HOSPITAL ROLE.           Clarify the appropriate role of birthing hospital
staff in providing acknowledgment assistance to unmarried parents. OCSE should help
States develop policy outlining the appropriate content and tone of hospital contact with
unmarried parents, particularly in regard to their advocating voluntary acknowledgment.

AGENCY ASSISTANCE TO HOSPITALS. Encourage State agencies to more actively
support hospital staff in implementing acknowledgment programs. OCSE should provide
technical assistance to help child support and vital records agencies better serve hospitals,
emphasizing the distribution and use of education and outreach materials as well as
techniques for providing feedback to hospital staff.




                                               ...
                                               111
AGENCY COMMENTS

We have worked in close partnership with OCSE throughout the conduct of this inspection.
Although we did not receive formal comments from ACF on our draft reports, they
demonstrated through their collaboration a general agreement with this report and the
companion reports. We worked with OCSE in developing a research methodology, provided
extensive briefings on study findings and created additional documents to meet agency needs.
We appreciate their cooperation and guidance, and will continue to work with them on the
issues raised in these reports. The Office of the Assistant Secretary for Planning and
Evaluation provided its general concurrence with both this report and the state
implementation report.




                                               iv
                          TABLE                          OF                CONTENTS

                                                                                                              PAGE 


EXECUTIVESUMMARY                            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION                  ..........................................                                             1


FINDINGS 


  � Overall     Program Rating .....................................                                                 4


  � Monitoring       of Hospital Participation                     .............................                     6


  � Relationships        Between Key Players ..............................                                          7


  � Assistance      to Hospital Staff and Parents ...........................                                        9


  � Additional      Program Constraints ...............................                                            13 


RECOMMENDATIONS                          .....................................                                     19 


ENDNOTES           .............................................                                                   21 


APPENDICES 


A: Comparison of Sample and Non-Sample States .....................                                               A-l 


B: Comparison of Hospital Data by Urbanization and Medicaid Discharge Rates ...                                   B-l 


C: Confidence Intervals ......................................                                                    C- 1 

                             INTRODUCTION

PURPOSE 


This report describes birthing hospital capability and progress in administering voluntary 

paternity acknowledgment programs in 15 sample States. 


BACKGROUND 


The Omnibus Budget Reconciliation Act of 1993 (OBRA) amends Title IV-D of the Social 

Security Act, requiring States to implement hospital-based programs for the voluntary 

acknowledgment of paternity. The objective of these programs is to facilitate at-birth 

paternity establishment for children born to unmarried parents. Without an establishment of 

paternity, unmarried mothers may never obtain a child support order and gain access to the 

enforcement services of their State child support office. Establishment of paternity at birth 

has many administrative, financial and emotional benefits. Mothers often lack information 

about the importance of and methods for establishing paternity. Consequently, they may not 

seek to establish paternity until a point at which the process becomes more difficult. 

Paternity researchers agree that the most opportune time for paternity establishment is the 

“happy hour” in the hospital immediately following birth and before the release of the 

mother and child. Once a child support order is issued, never-married women are as likely 

to receive payment as are divorced women. 


Many States administered hospital-based programs before this legislation, and even now the 

voluntary paternity acknowledgment process may be structured and administered largely at 

State discretion. The voluntary paternity acknowledgment process seeks to reduce 

administrative burdens and provide a healthier, more positive introduction to parenting 

responsibilities. In most States, the use of the voluntary acknowledgment process in birthing 

hospitals’ is the centerpiece of this effort. Under the OBRA mandate, State child support 

agencies must: 1) implement hospital-based voluntary paternity acknowledgment programs in 

every public and private birthing hospital; 2) require that a witness or notary public 

participate in the signing of voluntary acknowledgments; 3) make available voluntary 

acknowledgment outreach materials, including information on parental rights and 

responsibilities, and materials for training hospital staff; 4) and monitor birthing hospital 

compliance on an annual basis. At their discretion, OBRA allows States to provide Federal 

Financial Participation payments, not to exceed 20 dollars for each voluntary paternity 

acknowledgment, to birthing hospitals. 


The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (PRWORA) 

further defines paternity establishment and encourages State uniformity and accountability. 

PRWORA requires the following refinements to the procedures listed above: 1) provision to 

mothers and fathers of both written materials and an oral explanation regarding the rights and 

responsibilities of paternity establishment; 2) a uniform 60-day window for rescission 

following a voluntary paternity acknowledgment, after which acknowledgment would 

establish a legal finding of paternity; and 3) the inclusion of State vital records agencies in 



                                                1
processing paternity acknowledgments and child support orders. Neither law precludes the
use of the birth certificate, rather than a separate voluntary paternity acknowledgment form,
in acknowledging paternity if the birth certificate includes the necessary data elements.

As interpreted by the Office of Child Support Enforcement (OCSE), the intent of both laws
is to make voluntary paternity acknowledgment part of the birth registration process. This
places a great responsibility on birthing hospital staff to assist unmarried parents in
voluntarily acknowledging paternity. Although child support and vital records agencies may
attempt to educate parents prior to or following hospital admission, the hospital provides the
crucial arena for at-birth paternity acknowledgment.

METHODOLOGY

After extensive preinspection research, we surveyed both State agencies and birthing
hospitals in each of 15 sample States. Our study objective was to describe birthing hospital
capability and implementation, and the actions of child support and vital records agencies to
assist hospitals in administering acknowledgments. This facility-level report describes the
experiences of birthing hospitals in implementing voluntary acknowledgment programs and
the action of State agencies to assist these hospitals. By using a sample of States, we set the
stage for clearer analysis of the impact of State policy on hospital practices. Comprehensive,
pre-tested mail surveys were sent to child support and vital records agencies and a sample of
birthing hospitals in each sample State. We sampled States which ranked highest when
combining indices of nonmarital births and number of hospitals with high-Medicaid discharge
rates. We chose these measures to ensure adequate representation of those facilities more
likely to assist unmarried parents and to have need for paternity acknowledgment services.
The resulting list of States was modified somewhat for inclusion of some States which
possessed and some States which did not possess the following characteristics: operation of a
program prior to the Federal mandate, notarization requirement for paternity documents, and
State practice of paying hospitals for completed acknowledgments.

Within each State, we constructed two strata of birthing hospitals and randomly sampled
from each. The first stratum represents hospitals with a high number of Medicaid
discharges, and the second stratum consists of all other birthing hospitals in the State.2
Few significant differences were found to exist between the two strata, but comparisons of
hospitals by Medicaid discharge rates and urbanization status are included in Appendix B.
Our sample of States includes a broad spectrum of implementation strategies and experiences,
but generally focuses on States which are farther along in implementation than the average of
their national counterparts. One sample State, however, was just beginning program
implementation at the time of our data collection. A comparison of sample and non-sample
States is found in Appendix A, and confidence intervals for key survey questions are found
in Appendix C. The 15 sample States account for 68 percent of all U.S. nonmarital births
and 59 percent of all U.S. birthing hospitals.3

In addition to completing the survey, we asked the hospitals and State agencies to send
examples of paternity acknowledgment outreach materials and photocopies of their birth
certificates and voluntary acknowledgment forms. For child support agencies, the survey
instrument focused on the procedures in place for facilitating hospital-based paternity 

acknowledgment programs, their contact with and methods of evaluating birthing hospitals, 

and their procedures for acquiring completed voluntary acknowledgment forms. For vital 

records agencies, our focus was on the path of documentation of the voluntary 

acknowledgment data, but also covers interaction with child support offices, outreach to 

birthing hospitals and applicable State laws governing the use of birth registry information. 

In nearly all cases, the chief vital records registrar completed the survey. Child support 

enforcement agency surveys were sent to each States’ child support office, where respondents 

were typically child support directors or paternity program coordinators. In some cases, 

small groups of agency officers completed the form together. We received completed 

surveys and documents from each of the 15 State child support and vital records agencies.4 


The hospital survey instrument focused on hospitals’ implementation of paternity 

acknowledgment programs and their relationships with State child support and vital records 

offices. Surveys were directed to birth registration clerks in each facility. In cases where 

the birth clerks were not responsible for the completion of paternity acknowledgments, the 

surveys typically were rerouted to the appropriate staff in obstetrics or women’s health 

departments. Telephone follow-up was conducted with some one hundred hospitals who had 

not responded one month after the survey’s due date. In most cases, non-responses were due 

to surveys not being routed properly. By sending second copies of the survey directly to 

those responsible for completion of paternity acknowledgments, and aggressive telephone 

follow-up, we were able to achieve a response rate of 78 percent (429 hospitals).5 


Two companion reports will be issued as part of this study. The first entitled, “In-Hospital 

Voluntary Paternity Acknowledgment Programs: State Agency and Birthing Hospital 

Implementation” (OEI-06-95-00160) describes program implementation nationwide using 

survey responses from child support and vital records agencies in all States and the District 

of Columbia, and the second entitled, “In-Hospital Voluntary Paternity Acknowledgment 

Programs: Best Practices in Education and Outreach” (OEI-06-95-00162) highlights 

innovative approaches for educating unmarried parents and hospital staff. In addition, two 

documents were produced for OCSE during our inspection entitled “Sample State 

Summaries” and “Common Data Elements - State Paternity Acknowledgment Forms” to meet 

immediate needs pertaining to PRWORA implementation. 


This study was conducted in accordance with the Quality Standards for Inspections issued by 

the President’s Council on Integrity and Efficiency. 





                                              3

                                     FINDINGS 


While most birthing hospitals in sample States report offering voluntary paternity
acknowledgment services, and State agencies believe hospitals capable of administering these
services, unmarried parents could be better served by enhanced collaboration between State
agencies and hospitals. Hospital staff training and educational outreach to unmarried parents
are often insufficient, and many hospitals don’t know where to turn for further assistance.
Although hospital staff are positive about the worth of voluntary acknowledgment efforts,
they are confused about their role in communicating acknowledgment information to parents.
In-hospital voluntary paternity acknowledgment programs could be improved by further State
child support and vital records agency effort, including Statewide implementation of hospital
assessment procedures and use of more interactive training and outreach methods.

OVERALL PROGRAM RATING

Birthing HospitalsOffer VoluntaryPaternityAcknowledgment Services, and HospitalStaff
are Generally Positive, Viewing the Programs as Helpful to Parents.

Nearly all birthing hospitals surveyed report offering some form of voluntary paternity
acknowledgment service (even in the State just beginning formal program implementation),
and most hospital staff appear to value the purpose of paternity acknowledgment. Primary
responsibility for implementing the in-hospital programs typically lies with birth registrars in
the medical records department (57 percent) or birth registrars in the obstetrics department
(20 percent), with another 42 percent of hospitals relying on other obstetrics staff to
administer the program. Hospital social workers play a significant role in seven percent of
hospitals.6 Only a single hospital reports a social worker provided by child support held the
primary responsibility.

Child support agencies report hospital staff resistance is rare. Thirteen of the 15 sample
agencies report only a few or no hospitals express reluctance to participate in voluntary
acknowledgment programs, and four report no reluctance at all among hospital staff in their
State.’ Our survey of hospital staff confirms this cooperative attitude. One birth registrar
comments, “‘Itis very satisfying to fill a need for parents, and the process only adds a step
or two to my job. ”

Seventy percent of hospital respondents agree, rating the in-hospital paternity initiatives as
helpful or very helpful to parents. Only three percent deem the programs not helpful to
parents, with the remaining 27 percent rating the program as somewhat or a little helpful.
An obstetrics nurse at a large urban hospital wrote, “We have a heavy single mom Medicaid
population, and many here feel fathers should be held accountable. While most feel
marriage is preferable, this process does give an avenue to assume some responsibility/rights
and privileges. ” Only a few hospital respondents say the hospital stay is too hectic to expect
parents to comprehend the process, or that they felt uncomfortable dealing with the issue.




                                               4

Over Half of HospitalRespondents Report the Programs Both Simple to Administer and
Easy for Parents to Understand, and Most Child Support and VitalRecords Agencies Rate
HospitalStaff as Showing a Good Abilityand Effort in Administering the Programs.

Half of hospital respondents rate the paternity acknowledgment process as simple or very
simple to administer. Another 39 percent say it is neither simple nor difficult, and only 11
percent of hospitals say the process is difficult or very difficult. Even more (58 percent) of
hospital respondents find the voluntary paternity acknowledgment process to be easy or very
easy for parents to understand, 31 percent find it neither easy nor hard, and only 11 percent
believe it to be difficult or very difficult for parents to comprehend. A number of issues
appear to affect whether a hospital rated the process as simple or difficult. For example,
hospital staff receiving training and educational materials by their child support agency or
some other source are more likely to rate the process as simple or very simple to administer
compared with those not receiving training (61 vs. 48 percent). Hospitals reporting an
effective relationship with the vital records agency also are more likely to rate the program
as simple or very simple to administer (61 vs. 36 percent) compared with those with
ineffective relationships. Hospitals finding the program simple or very simple to administer
also perceive it more helpful to parents (84 vs. 3 percent) and easier to understand (72 vs. 7
percent). High-Medicaid urban hospitals are more likely than other types to rate their
programs difficult to administer (19 vs. 9 percent),8 as are hospitals which use a paternity
affidavit form rather than the birth certificate for documentation of acknowledgment (26 vs. 8
percent).

Most State agencies rate both the ability and effort of hospital staff in administering
acknowledgments as good, with child support agencies rating ability slightly higher than
effort. Still, one-fourth of both child support and vital records agencies rate effort as fair or
poor, representing a perceived need for improvement in a number of States. Interestingly,
both State agencies respond quite similarly to this evaluation of hospital staff. Three vital
records and two child support agencies in our sample States chose not to rate hospital staff.
Both wrote that the quality of staff activities varies too much from hospital to hospital for
them to provide an aggregate response. Agency ratings by the remaining States are shown in
Table 1.
                       Table 1: ABILITY AND EFFORT OF HOSPITAL STAFF

                                            Ability                             Effort 


                                 Child Support       Vital Records   Child Support    Vital Records 


 Excellent 
                          8%                  8%              8%               8%
                                      (1)                 (1)             (1)              (1)
 Good 
                              77%                 67%             67%               67%
                                     (10)                 (8)             (8)              (8)

 Fair 
                              15%                 17%             17%               25%
                                      (2)                 (2)             (2)               (3)
 Poor or Very Poor 
                  0%                  8%              8%               0%
                                      (0)                 (1)             (1)              (0)



                                                 5
MONITORING OF HOSPITAL PARTICIPATION

Although Child Support and VitalRecords Agencies as Well as Birthing HospitalsReport
WidespreadProgram Participation,Only 73 Percent of Sample Child Support Agencies
Monitor HospitalParticipation.

Child support agencies in 11 of the 15 sample States (73 percent) report their hospitals were
already offering minimal voluntary acknowledgment services prior to OBRA, and that they
now have Statewide hospital participation. Of the remaining four sample States which do not
report Statewide implementation, two have contacted all birthing hospitals to inform them of
the acknowledgment program, one has not yet contacted all hospitals because it chose to first
target those with a higher incidence of nonmarital births, and the other was just beginning to
contact hospitals when surveyed. But even though implementation appears to be widespread,
hospitals reporting use of acknowledgment procedures may not offer the same type and
degree of service to parents. Some may only complete a paternity affidavit if requested by a
parent, while others have very deliberate program implementation strategies which include
training of hospital staff and outreach to unmarried parents. Child support agencies have
been slow to adopt monitoring and assessment procedures which would allow them to
evaluate hospital participation. Child support agencies in 11 of the sample States (73
percent) report they at least collect minimal data needed to monitor individual hospital
participation. 9

Most HospitalMonitoring Includes Onlythe Collectionof Data, and Not the Evaluationof
Process, and Few Child Support Agencies Offer Feedback to HospitalStaff.

Nearly all of the 11 States which do monitor hospitals only track the number of
acknowledgments and nonmaritai births from each hospital, which is the minimum required
by the Federal mandate. Few yet attempt to evaluate other aspects of the hospital programs
such as staff involvement or parent use of outreach materials, and most don’t provide any
feedback to the hospitals they have assessed. Of the four remaining sample States which
don’t yet assess hospital participation, three track the number of acknowledgments from each
birthing hospital in their State but do not yet monitor hospital participation by comparing that
information with the number of nonmarital births assisted.

Within the 11 States which monitor hospital participation, only 20 percent of hospitals report
they were monitored or assessed in any way. Of those which do recognize being monitored,
only half (54 percent) attribute the involvement to their child support agency. The other
groups hospitals report most likely to monitor their programs or conduct hospital assessments
are the vital records agency (28 percent), and their own hospital administration (7 percent).
Therefore, only a small number of birthing hospitals (37) are aware of any program
evaluation by a child support office. This could be because child support agency monitoring
of hospitals is not done Statewide, or that our respondents, as frontline staff, are not made
aware of the monitoring or assessments by hospital administrators. It is also possible some
State child support agencies are monitoring hospital activity, but are not yet ready to provide
feedback to hospitals or plan to contact hospitals only when problems arise. Regardless, our


                                               6
hospital respondents, those directly responsible for contact with unmarried parents, are
usually not aware of the results of any monitoring or assessment.” A companion report
subtitled “Best Practices in Education and Outreach” will describe the efforts of States which
have begun to conduct assessments of hospital process as well as outcome, and detail
innovative ideas for offering feedback to hospital staff.

RELATIONSHIPS BETWEEN KEY PLAYERS

Most Birthing HospitalsReport Effective Relationshipswith VitalRecords and Are Also
Fairly Positiveabout Child Support Agencies, But Often Have Trouble Identifying Them.

Birthing hospitals and vital records agencies report positive ties with each other, enjoying
long-standing relationships established through the birth registration process. Eighty-one
percent of hospitals and 93 percent of vital records agencies rate their general relationship
with each other as effective or very effective, although a few wrote their relationship did not
reflect work on paternity acknowledgments as their vital records department hadn’t yet
become actively involved with this effort.” Only four percent of hospitals report an
ineffective or very ineffective relationship with their vital records agency.12 Seventy-six
percent of hospital respondents find no barriers at all to this relationship, but of those who
did list barriers, the most common are poor communication (30 percent), differences in
levels of automation (25 percent), and inadequate training of hospital staff by vital records
(24 percent).

Conversely, many birthing hospitals have difficulty characterizing a relationship with their
child support agency. Child support agencies in the sample States rate their contact with
birthing hospitals as positive, with 80 percent reporting effective or very effective
relationships, but 53 percent of hospitals claim they have no relationship with their child
support agency. In addition, nearly a third of hospitals (35 percent) report that, although
they offer acknowledgment services and inform parents about paternity, they do not consider
themselves to be part of a Statewide paternity acknowledgment program. Among high-
Medicaid hospitals, urbanization affected the perception of participation in a Statewide
program: 53 percent of high-Medicaid, rural hospitals did not consider themselves part of a
Statewide paternity acknowledgment program contrasted with 33 percent high-Medicaid,
urban hospitals and only 15 percent of high-Medicaid, suburban hospitals. It is important to
note that of the nearly two hundred birthing hospitals which did recognize a relationship with
their child support agency, 73 percent rate the relationship as effective or very effective.

Other hospital responses in part disprove this reported lack of a connection with the child
support office and may point instead to a misunderstanding by hospital respondents. One
cause of this claim of no relationship with child support agencies could be hospitals’
difficulty in identifying the agency name or paternity program name.13 Of those claiming
no relationship, nearly half went on in our survey to identify specific program tasks which
had been completed by child support personnel. Also, when a number of hospitals which
report no relationship sent us their completed surveys, they included outreach and staff
training materials which are clearly produced by their child support agency. Still, large
numbers of hospital respondents reporting no relationship with a child support agency


                                                7
signifies child support offices may not be proactive enough in identifying themselves to
birthing hospitals. When this occurs, hospital staff may have difficulty requesting additional
materials or program assistance. There appears to be a genuine need for more and better
(particularly interactive) training and outreach to hospital staff by child support agencies.
Not only would hospital staff benefit from the content of the training, but they would begin
to develop ties to the child support office that would aid in further program collaboration.

Part of the problem birthing hospitals have in identifying their State’s child support agency
may also be that both child support and vital records agencies are unclear about their
respective roles in the acknowledgment process. When asked which of the two State
agencies has primary responsibility for administering the acknowledgment process, agencies
in three States gave different answers. It should not be surprising in these States that
hospitals have trouble identifying and distinguishing agency roles. When hospital
respondents are able to identify their State or local child support agency and list barriers to
effective collaboration, they most often list poor communication (46 percent), inadequate
training of hospital staff by the child support agency (25 percent) and difficulty obtaining
materials and assistance (18 percent). One hospital respondent wrote that she would benefit
from having a single child support staff member serve as a contact for her hospital, and a
few complain that phone lines were busy when they tried to call for more materials.

Child Support Agencies Which Pay Hospitalsfor CompletedAcknowledgmentsReport This
Enhances Relationships,But HospitalRespondentsAppear Largely Unaffected by Payment.

Provisions allow, but do not require, child support agencies to pay hospitals an
administrative fee for completed voluntary paternity acknowledgments.14 There has been
much policy discussion within the child support community regarding the appropriateness of
this payment and its effect on service and relationships. Of the 15 sample States, eight child
support offices report they currently pay hospitals for receipt of completed voluntary
paternity acknowledgments, while one office did pay in the past and six have never paid.
Not all of the States which pay responded about the effect of payment on services, but all
five which did respond report an improvement in hospital service and in their relationship
with hospitals as a result of payment.

However, 16 percent of hospitals in States which pay do not report receiving such payments.
In two States this discrepancy is caused, at least in part, by the child support agency only
paying hospitals on a per request basis, indicating that some hospitals may not have known
that payment is available or are not interested in being paid. Other discrepancies may be
because the frontline hospital staff responding to our survey may not be aware that payment
 is made to the hospital. The remaining seven States choose not to pay primarily because
they consider it the hospital’s job to process birth registration information and therefore can’t
justify payment (4 States), or they feel funds are too limited to allow payment (3 States).

Although child support agencies which pay believe payment helps hospitals and improves
relationships, our hospital respondents report payment makes little difference. Most hospital
respondents (77 percent) claim the additional funds make no difference or only a minimal
difference in their hospital’s ability to administer voluntary acknowledgments. Nineteen


                                                8
percent report payment by their child support agency makes a great to moderate difference in 

administration, and the remaining four percent didn’t know if it made a difference to their 

hospital. It could be that the money does make a difference to hospital administrators or 

comptrollers, but payment has less effect on the frontline workers who actually handle the 

paternity acknowledgments and who completed our survey. Some hospital respondents who 

did report the payment makes a difference cited the cost of staffing notaries as 

justification. l5 At the time regulations were written to provide guidance for 

implementation, policy makers expressed a fear that hospital payment for acknowledgments 

would dilute the voluntary nature of the process by providing a “bounty” for hospitals. Our 

survey results appear to disprove this fear, as frontline workers often report being unaffected 

by and even unaware of payment agreements. 


ASSISTANCE TO HOSPITAL STAFF AND PARENTS

Not All Hospitalsare Provided withStaff Training and Educational Materialsto Assist
them in the AcknowledgmentProcess, and Even Though Most Child Support Agencies
Report Producing Videos and Conducting On-Site Training Sessions, a Much Smaller
Percentage of HospitalsReport Use of These Methods, Relying Primarilyon Brochures.

Only 72 percent of hospitals report receiving staff training or educational materials on
paternity acknowledgment from one of the State agencies. Sixty percent of hospitals report
receiving brochures, but far fewer appear to be using more interactive methods of staff
training. Even though all child support and vital records agencies in the 15 sample States
report they train hospital staff, and six child support agencies have produced training videos,
only 18 percent of hospitals report using videos on the paternity acknowledgment process for
staff training.

Additionally, high percentages (87 and 85 percent) of both child support and vital records
agencies report conducting on-site lectures or seminars, but only 23 percent of hospitals
report receiving such training (See Table 2). This discrepancy could be because training
sessions are often conducted for the staff of several birthing hospitals from the same region
and were therefore not identified by hospital survey respondents as “on-site training,” but is
more likely to be because on-site training by agencies has only been completed in a small
number of the States’ hospitals. Child support agencies in sample States report hospital staff
training materials are most often created by their own staff (87 percent), with additional
materials coming from vital records staff (20 percent), and private contractors (27 percent).
It is important to note that although all vital records agencies train hospital staff, the focus of
their training is usually on the birth registration process as a whole and not specifically on
paternity acknowledgment for unmarried parents. Since vital records agencies must make
contact with hospitals regarding birth registration anyway, it may be prudent for child
support staff to work within this preexisting framework and collaborate with vital records in
distributing paternity materials. PRWORA requires that vital records agencies offer paternity
acknowledgment services, both in the hospital and at their State, regional and local offices.




                                                 9

                   Table 2: TYPE OF HOSPITAL STAFF TRAINING PROVIDED TO
                             AND RECEIVED BY BIRTHING HOSPITALS

                                                          Child Support   Vital Records   Hospitals

  Brochures/Pamphlets/Handbook                                93%           54%             60%
                                                              (14)           (7)            (242)

  On-Site Lectures or Seminars                                87%           85%             23%
                                                              (13)          (11)            (106)

  Video Tape Training                                         40%            0%              18%
                                                               (6)           (0)             (57)

  Other (examples: regional workshops,                        67%           40%              16%
  individual meetings, l-800 phone number, etc.)              (10)           (6)             (68)


Even Though Child Support Agencies Have Created Training Materials, They Are Not All
Proactivein Determining Hospitals’ Training Needs and Hospitals Which Have Already
Been Trained by Child Support Agencies Still Express the Need for More Training.

Significantly, even many hospital staff who received training do not yet feel comfortable
administering the program, as 39 percent of hospitals reporting they need more training have
recently been trained by their child support agency. Several mentioned a particular desire for
interactive training methods, such as videos, seminars, and on-site visits. We received a
number of calls from hospitals during the survey requesting information on video and
seminar resources, and referred them to their State child support office. When training does
take place, it targets hospital birth registrars primarily, but often includes obstetrics staff, and
to a lesser degree, medical social workers, nursery attendants and pediatrics staff. Hospital
staff training by child support agencies covers only paternity acknowledgment issues, but as
mentioned above, training by vital records agencies must focus on the larger birth
registration process. Some (20 percent) vital records agency training of hospital staff does
not include information on voluntary paternity acknowledgment at all.

Even when initial training efforts are made, hospital staff turnover and high numbers of
nonmarital births create a continual need for assistance. Adequate aid to hospitals requires
that child support agencies determine changing hospital needs, but not all child support
agencies make this effort. After initial training efforts, child support offices in six sample
States (40 percent) rely on hospitals to notify them when there is a need for additional
instruction and materials for new hospital employees, and make no effort to initiate contact
with hospitals or assess their continuing needs. A few hospital respondents wrote that they
would appreciate these contacts as a means of “moral support.”

Among the remaining nine child support agencies which use more proactive methods to
determine need, 53 percent place periodic phone calls, and 47 percent conduct status checks
in-person. Only 13 percent of child support agencies in sample States automatically send
new materials throughout the year. A small number of hospitals (5 percent), have begun to




                                                   10 

create their own paternity acknowledgment training materials, usually simple step-by-step
instruction sheets.

Some Child Support Agencies and HospitalsConduct Follow-upAfter Discharge With
Parents Who Do Not Acknowledge PaternityDuring Their HospitalStay, But Some States
Have PrivacyStatutes Which Inhibit Such Efforts.

Because hospital stays are often brief, and births may not be registered for a week or more,
three child support agencies and 19 percent of hospitals in sample States contact all
unmarried mothers following discharge if they do not voluntarily acknowledge paternity in
the hospital. The purpose of these contacts is to offer mothers another opportunity for
assistance in acknowledging paternity before the birth is registered. Typical is a phone call
or certified letter a week or more after discharge. l6 Child support offices most often
receive the birth registration information necessary for these follow-ups from the State or
local vital records agencies. Hospitals simply use the birth registration information they
collect during the hospital stay. This follow-up is conducted irrespective of the family’s
child support status, but at least three of the sample States possess privacy statutes which
would inhibit child support staff from receiving birth registration information such as phone
numbers and addresses from unmarried parents not in the child support caseload. No vital
records agency reports use of a follow-up procedure.

Nearly All Child Support Agencies in Sample States Report Educational Outreach Efforts
to Parents (93 percent), but Fewer Hospitals(74 percent) Report Such Materialsare
Availableand Utilized,and Only a Quarter of HospitalsConduct Prenatal Outreach.

All but one sample child support agency report participating in outreach to parents regarding
voluntary paternity acknowledgment, and the remaining State was creating an outreach
program when surveyed. Among child support offices which distribute parent outreach
materials, brochures and pamphlets are the most common outreach mechanism created (100
percent), followed by videos (79 percent), and workshops or lectures (7 1 percent). See
Table 3 for a complete listing. Most (86 percent) of these States offer materials in languages
besides English, with Spanish being the most common alternative. As with hospital staff
training, child support agencies report their own staff create these materials most frequently
(86 percent), and that private contractors create additional materials in 36 percent of sample
States.




                                               11 

                               Table 3: TYPE OF PARENT OUTREACH 

                          PROVIDED TO AND USED BY BIRTHING HOSPITALS 


                                                            Child Support     Birthing Hospitals

  Brochures/Pamphlets/Handbook 
                                 100%               67%
                                                                  (14)              (195)
  Video Tape Training 
                                          79%                 23%
                                                                 (11)                (60)

  On-site Lectures or Workshops 
                                71%                 2%
                                                                 (10)                (7)
  Other (examples: regional workshops, 
                         67%                 6%
  individual meetings, l-800 numbers, etc.)                      (10)                (18)


Though nearly all child support agencies report producing and distributing these materials,
just 74 percent of responding hospitals are prepared with educational materials for unmarried
parents, usually a brochure or paternity instruction packet (67 percent). Although a high
number of child support offices produce videos and hold workshops for parents, only a
quarter of hospitals (23 percent) report using videos” and only seven hospitals report
holding workshops. The discrepancy between agency reported outreach efforts conducted
and those materials actually being used in the hospital suggests that child support offices have
often not distributed materials Statewide, they are not conducting follow-up to provide a
continual supply of materials as mentioned above, or that hospital staff are not using the
materials sent. In the case of the outreach workshops or lectures, child support offices which
report use of these must have thus far reached only a very small number of their State’s
hospitals. When materials are widely distributed, lack of use could indicate a hospital
administration problem in which materials received are not properly distributed to frontline
hospital staff for use with parents.

Hospital staff not using available parent educational materials may be a result of insufficient
program training on the part of the State child support or vital records agencies. During
preinspection, one birth registrar in a large public hospital searched her office for a lengthy
period following our request for materials, and eventually uncovered a large package of
brochures sent to the hospital by the State child support agency. She had been given no
instruction on use of the materials, and so had packed the brochures away as unimportant.
In addition, only 20 percent of hospitals conduct any prenatal education on voluntary
paternity acknowledgment, although a third of both child support and hospital respondents
believe this prenatal education is important for encouraging unmarried parents to
acknowledge. l8 Several sample States have begun more widespread outreach efforts, and in
a companion report we will provide details regarding the variety of educational outreach
techniques which States and hospitals use in their voluntary paternity acknowledgment
programs.




                                               12 

ADDITIONAL PROGRAM CONSTRAINTS

Over Half of HospitalsPerceive No Barriers to Implementation,Although the Qualityof
HospitalServices is Reported to be Limited Somewhatby Internal HospitalFactors Such as
Insufficient Staffing Levels, and Over-Relianceon Birth Certificate Worksheets.

Collaboration between State agencies and birthing hospitals is critical to the success of
voluntary paternity acknowledgment programs, but a number of factors inherent in birthing
hospitals may somewhat hamper program efforts. Child support agencies indicate a number
of barriers, including lack of sufficient hospital staff (80 percent), staff not recognizing the
importance of their role (80 percent), and staff being inflexible and resistant to change (33
percent). Vital records agencies agree strongly that the lack of hospital staff is an internal
facility constraint (47 percent). Sample vital records agencies unanimously identify the
inability of hospital staff to perceive a need for the program as a barrier, although far fewer
sample child support agencies (40 percent) agree. This concern is not born out by the
hospital survey, as 87 percent of hospital respondents report at least a moderate need for
paternity services in their hospitals, and 55 percent even claim a great or very great need. A
quarter of vital records agencies (27 percent) find no barriers at all to hospital participation
(See Table 4).


                      Table 4: BARRIERS TO HOSPITAL PARTICIPATION

                                                                 Child Support   Vital Records

 No Barriers Found                                                    7%              27%
                                                                      (1)              (4)
 Hospital Understaffed to Deal with the Acknowledgment Process       80%             47%
                                                                      (12)            (7)
 High Staff Turnover Limits Knowledge and Expertise                  N/A             64%
                                                                                      (9)
 Staff Doesn’t Recognize the Importance of Their Role                80%              13%
                                                                      (12)            (2)

 Staff Perceive No Need For the Program in Their Hospitals           40%             100%
                                                                      (6)             (14)
 Staff is Inflexible and Resistant to Change                         33%              7%
                                                                      (5)             (1)
 Little or No Payment to Hospitals by Child Support                   7%              N/A
                                                                      (1)

An additional potential barrier to effective parental involvement is possible over-reliance on
birth certificate worksheets. Eighty-four percent of responding birthing hospitals use birth
certificate worksheets to obtain registration information from new parents, and the use of
these worksheets may limit communication between parents and staff. We placed follow-up
telephone calls to a number of hospitals which report using birth certificate worksheets, and
find that they may considerably reduce the amount of time parents interact with hospital staff


                                                      13
such as birth registrars and obstetrics nurses. Hospital staff typically leave the worksheet
with the unmarried mother for completion (possibly along with a brochure on paternity
acknowledgment), and pick it up just prior to patient discharge. l9 In hospitals where
worksheets are not used, hospital staff ask birth certificate questions of the mother directly.
When asking questions pertaining to the father, staff who interview orally rather than using
worksheets have a natural opportunity to inform the mother of the acknowledgment process.
A heavy reliance on birth certificate worksheets may prove especially problematic under the
PRWORA provision requiring hospital staff to give both written and oral notification of
paternity rights and responsibilities.

Over half (54 percent) of responding birthing hospitals saw no internal barriers to
participation in their State’s voluntary paternity acknowledgment program, although many
hospital respondents do agree with agencies that sufficient staffing can be a problem.
Of those hospitals identifying facility barriers, the most common are lack of sufficient
hospital staff (37 percent), paternity acknowledgment being given a low priority by hospitals
(24 percent), and hospital budget constraints (18 percent). Of hospital respondents who did
perceive facility barriers, half report only one barrier, while 20 percent report two barriers,
25 percent report three, and only 5 percent find four or more barriers, suggesting that
hospitals respondents feel fairly positive about the capability of their hospital to administer
the program. During our preinspection interviews, child support personnel often mentioned
high hospital staff turnover as a barrier to program implementation.      Although 64 percent of
vital records respondents cite this as a barrier (the child support survey did not list this
option), few hospitals (6 percent) see high staff turnover as a barrier to program
implementation.

Half of Child Support Agencies and a Quarter of HospitalsReport Requiring Notarization
of PaternityDocuments NegativelyImpacts the VoluntaryAcknowledgmentProgram,
PrimarilyDue to Limited Availabilityof Notaries.

Because most paternity establishments were formerly completed through a judicial process,
notarization of paternity documents is thought by some to add credibility to the new
administrative procedures. Because notarization of paternity documents requires that
hospitals have access to certified notaries public, the requirement is a potential barrier to
smooth program operations. Notarization of paternity acknowledgment affidavits is required
in 11 sample States, with the remaining four requiring witnessing of paternity
documentation.*’ Only 23 percent of hospitals in notarizing States report the requirement
has an overall negative impact, with 36 percent claiming a positive impact, and the remaining
40 percent reporting no impact. Suburban hospitals are more likely to report a positive
impact (46 percent) compared with both urban and rural hospitals (36 and 32 percent).
Although the reaction to notarization is not strongly negative, over half (57 percent) of
hospitals which require notarization did indicate that unavailability of notaries can be a
barrier to acknowledgment. But of the 57 percent of hospitals which report lack of
availability of notaries as a problem, two-thirds (66 percent) claim notarization has a positive
impact or no impact on their programs. It may be that some birth registrars are burdened a
bit by the availability issue, but still don’t see notarization as a negative because they believe
in its importance. Comments include, “requiring a notary to sign the forms makes me feel


                                                14
more comfortable in knowing that the forms have been completed,” and “parents take the
process more seriously and muy be more likely to understand its importance.”

Child support agencies are more negative than hospitals on the issue of notarization. Six
child support agencies in the 11 sample States which require notarization report it has a
negative impact on their programs, four agencies claim a positive impact and one reports no
impact. Further, most child support agencies which have chosen to require only a witness
cite the lack of availability of notaries as the reason. These agencies appear to assume
notarization places a greater strain on hospital staff than the hospitals themselves report. A
few hospitals (12) say it is difficult to have both the mother and father present at the same
time the notary is available*‘, and the father may often lack proper identification.

Hospitals perceiving availability of notaries as a problem often note this can cause a delay in
signing, with 40 hospitals mentioning evenings and weekends as particularly problematic. In
64 percent of responding hospitals, notaries are available only during weekday business
hours. Another 11 percent of hospitals also report notaries are only available during business
hours, but are on-call at other times. Only six percent of responding birthing hospitals for
whom notarization was required had notaries on staff seven days a week, 24 hours a day.
The remaining 19 percent gave a wide variety of responses, usually indicating notary staffing
changed from day to day. The availability of notaries is less likely to affect the completion
of acknowledgments in rural hospitals (48 percent) compared with suburban or urban
hospitals (65 and 63 percent). While 9 percent of responding hospitals require completion of
acknowledgments before the mother is released, most hospital birth registrars will accept an
acknowledgment affidavit from parents after discharge.**

Lack of ClarityAbout the Responsibilitiesof HospitalStaff in Communicating with
Unmarried Parents, Particularlyas it Concerns Their Role as Advocatesof Paternity
Acknowledgment, Creates a DisparityAmong Hospitalsin Their Service to Parents.

Hospitals and State agencies give varied and inconsistent answers regarding the
responsibilities of frontline hospital staff in assisting unmarried parents through the
acknowledgment process. Our survey outlines three areas of potential hospital staff
responsibility: acknowledgment documentation; parental rights and responsibilities; and
advocacy of paternity acknowledgment. Based on the Federal statutes, the first two areas are
clear responsibilities of hospital staff. Hospital staff obviously must help to facilitate the
documentation of voluntary acknowledgments and, according to OBRA and PRWORA, must
also inform parents of their rights and responsibilities. However, only 10 vital records
agencies in the sample States identified these two key tasks. All sample child support
agencies identify documentation assistance, but two do not believe explanation of rights and
responsibilities to be the role of hospital staff (see Table 5).

The third potential area of responsibility (hospital staff acting as advocates of paternity
acknowledgment) is somewhat controversial. Some child support advocates believe that
hospital staff should not actively urge or encourage acknowledgment, especially if the
hospital is being paid for submitting completed forms, as this may jeopardize the voluntary
nature of acknowledgment. However, 10 child support agencies and 7 vital records


                                              15
respondents in sample States support this more proactive role by hospital staff. Of birthing
hospitals, 38 percent felt an obligation to actively urge or encourage unmarried parents to
acknowledge paternity. Interestingly, high-Medicaid, suburban and urban hospitals are more
likely to actively promote the idea of paternity acknowledgment to parents as a perceived role
of hospital staff (63 and 47 percent) compared with low-Medicaid, urban hospitals (26
percent). Based on these divergent responses, it appears both State agencies and hospitals
are somewhat confused about the role of hospital staff. All key players may benefit from
guidance regarding the content, tone and tenor of contact between unmarried parents and
hospital staff.23 Unless both child support and vital records agencies construct a unified set
of guidelines and inform their own personnel, as well as birthing hospital staff, there is less
likelihood that parents will receive a clear and consistent message on the voluntary
acknowledgment process.


II                                Table 5: ROLE OF HOSPITAL STAFF                                II

                                                                Child     Vital
                                                               support   Records     Hospitals

 Informing Parents of their Rights and Responsibilities         87%       71%          76%
                                                                (13)      (10)         (317)
 Helping to Facilitate the Documentation of Acknowledgment      100%      71%          59%
                                                                 (15)     (10)         (24%

 Actively Urging or Encouraging Parents to Acknowledge          67%       50%          38%
                                                                (10)       (7)         (168)


Factors External to HospitalPrograms, Such as Poor Parent Relationships,May Also
Limit PaternityAcknowledgments,Although HospitalsReport Large Numbers of Fathers
VisitDuring the Mother’s Stay.

The success or failure of voluntary paternity acknowledgment programs lies ultimately with
the parents themselves. Both child support agencies and hospital respondents affirm that the
parent relationship is crucial in making the decision to acknowledge. Hospitals and child
support agencies largely agree about what influences parents to acknowledge, with both citing
the putative father as slightly more likely than the mother to create a barrier to
acknowledgment. Among hospital respondents, 57 percent believe it is most often the father
who creates a barrier to acknowledging paternity, 24 percent report the mother and father
equally share responsibility for not acknowledging, and 19 percent report the mother is most
often reluctant. 24 Child support agencies cite a number of factors that have a strong or very
strong influence on whether or not parents choose to acknowledge paternity. The most
common factors influencing parents to acknowledge include the new parents cohabitating or
in a long relationship, their exposure to the idea of paternity establishment by hospital staff,
and strong emotional feelings upon the baby’s arrival (see Table 6).

Not many differences exist between child support and hospital staff responses regarding what
influences parents to acknowledge, but, interestingly, child support agencies are more likely
than hospital respondents to credit parental exposure to the idea of paternity acknowledgment


                                                          16
by hospital staff.*’ Hospitals are much more likely than child support to mention the
influence of both maternal and paternal grandparents. Even though it was not provided as an
option on our survey instrument, a number of hospital respondents wrote that naming the
father on the birth certificate is also an incentive for parents to acknowledge.


                    Table 6: Factors Reported to Strongly or Very Strongly Influence
                      Unmarried Parents to Acknowledge Paternity at the Hospital

                                                              Child Support            Hospitals

 New parents cohabitating or in long relationship                 80%                    82%
                                                                   (12)                  (258)

 Emotional feelings with baby’s arrival                           68%                    75%
                                                                  (10)                   Gw

 Exposure to idea of paternity from hospital staff                68%                    41%
                                                                  (10)                   (161)

 Exposure to idea of paternity                                    33%                    33%
 from prenatal care providers                                      (5)                   (63)
 Pressure from paternal grandparents                               14%                   28%
                                                                   (2)                   (56)
 Pressure from maternal grandparents                               14%                   39%
                                                                   (2)                   (85)


Factors having the greatest influence on parents who choose not to acknowledge include a
bad relationship between the new parents, the putative father not visiting the hospital, the
new mother’s fear of sharing custody, and the short length of her hospital stay (see Table 7).
The closest agreement between agencies and hospitals is the mother’s fear of violence from
the father, the father not visiting the hospital, and the mother’s fear of losing AFDC and
other public benefits. However, child support agencies give much more credence than
hospitals to the effect of parents’ poor understanding about paternity, the length of the
mother’s hospital stay*‘j, and the mother’s fear of losing custody. Again, hospital
respondents affirm the significance of both paternal and maternal grandparents. Although not
listed as an option on our survey instrument, several hospital respondents wrote that fathers
may not sign at the time of birth because they believe they will then be responsible for the
hospital bill. Other negative influences mentioned by hospital respondents were the fear of
paying child support, and uncertainty about the identity of the father.

When the father doesn’t visit the hospital it creates, of course, a strong influence against
acknowledgment. However, most hospital respondents (68 percent) estimate all or most
unmarried fathers come to the hospital during the mother and baby’s hospital stay. Another
22 percent estimate that about half of unmarried fathers come, and only five percent report
few or no fathers come to the hospital. 27 Rural, low-Medicaid hospitals experience the
greatest number of fathers visiting the hospital (82 percent) compared with 68 percent of all
suburban hospitals and 61 percent of all urban hospitals. Father visitation is lowest in high-



                                                     17 

Medicaid urban hospitals compared with other hospital types, with only 52 percent of these
hospitals report that all or most fathers come to the hospital. Forty-five percent of all
hospital respondents estimate that most or all of these fathers who visit also participate in the
labor and delivery process, with another 25 percent reporting about half of unmarried fathers
participate and 11 percent claiming only a few or no fathers participate.28 Therefore, a
relatively large number of fathers appear to be present during the hospital stay but still
choose not to acknowledge paternity.


                   Table 7: Factors Agencies Report to Strongly or Very Strongly Influence
                       Unmarried Parents Not to Acknowledge Paternity at the Hospital

                                                                     Child Support           Hospitals

      Bad Relationship Between the Unmarried Parents 
                   100%                 75%
                                                                          (15)               (253)

      Father Doesn’t Visit the Hospital 
                                 87%                76%
                                                                          (13)               (246)

      Mother’s Fear of Sharing Custody With the Father 
                  87%                42%
                                                                          (13)               (128)

      Length of the Hospital Stay Short 
                                 80%                41%
                                                                          (12)               (131)
      Lack of Understanding About Paternity Establishment 
               60%                31%
                                                                           (9)               (104)

      Mother’s Fear of Not Receiving AFDC or Other Benefits 
             50%                61%
                                                                           (7)               (180)

      Mother’s Fear of Violence From Father 
                             46%                36%
                                                                          (6)                (74)

      Pressure From Maternal Grandparents 
                               8%                 26%
                                                                          (1)                (56)
      Pressure From Paternal Grandparents 
                               8%                 20%
                                                                          (1)                (41)




                                                    18 

                      RECOMMENDATIONS

Overall, we find hospitals are supportive of the paternity acknowledgment effort, appear to
recognize the importance of paternity establishment, and are increasingly capable of
successfully administering acknowledgments. However, State agencies, particularly child
support, could do more to assist hospitals in program administration. Based on our findings,
we recommend the Office of Child Support Enforcement (OCSE) take the following actions
to improve the State operation of in-hospital paternity acknowledgment programs. The first
and second recommendations duplicate those found in a companion report on nationwide
program implementation:

AGENCY INTERACTION AND DIVISION OF DUTIES.                 Promote interagency
collaboration, and assure child support and vital records agencies more clearly define
their respective agency roles. In a number of States, hospital staff do not understand the
responsibilities of the two respective agencies. Over half of hospital respondents couldn’t
even identify their child support agency, and a number even called our office for assistance
after receiving their survey. This confusion could create delays in documentation, as well as
gaps in service to hospitals and in outreach to unmarried parents. OCSE should provide
technical assistance to enhance agency interaction and encourage joint problem-solving
among child support and vital records agencies, and should consider encouraging States to
draft a flexible interagency agreement which would make clear the procedures and activities
specific to each agency. Such an agreement may help to provide hospitals with a clear
contact point, avoiding possible duplication of effort, developing efficient administrative
mechanisms and maximizing the use of State and Federal resources.

STATEWIDE HOSPITAL IMPLEMENTATION AND ASSESSMENT.                       Monitor Statewide
hospital implementation by assuring all States collect acknowledgment and nonmarital
birth data for each birthing hospital and by encouraging development of hospital
assessment procedures. Although nearly all sample child support agencies have contacted
their birthing hospitals regarding the Federal mandates, only 73 percent report Statewide
hospital participation. In addition, we find that programs vary widely among hospitals even
in States which have achieved Statewide compliance. Only 73 percent of child support
agencies in sample States have implemented hospital monitoring procedures by collecting
data on the number of acknowledgments received per hospital and comparing it to the
number of nonmarital births each hospital assists. OCSE should consider developing a
uniform reporting mechanism for States to record data collected for each birthing hospital.
OBRA requires States at a minimum collect this data on hospital nonmarital births and
acknowledgments received, but States should be encouraged to also assess hospital practices
and procedures in obtaining these acknowledgments. OCSE should provide technical
assistance to States in creating hospital assessment procedures, and in doing so consider
developing assessment criteria which would evaluate the process birthing hospitals use to
obtain acknowledgments as well as the outcome of acknowledgments received. Examples of
potential assessment criteria include use of hospital staff training and outreach materials,
hospital staff contact with unmarried parents, and documentation handling. Not only are
many hospitals often not monitored in their program participation, but few child support


                                              19
offices conduct follow-up efforts to determine continuing hospital needs. A uniform State
reporting mechanism would serve to determine State compliance with the hospital data
collection requirement, allow OCSE to monitor Statewide program implementation, and
would also hold child support agencies more accountable for responding to the needs of every
hospital.

DEFINITION OF HOSPITAL ROLE.             Clarify the appropriate role of birthing hospital
staff in providing acknowledgment assistance to unmarried parents. Both agencies and
hospital staff members are unclear about the content and tone of hospital contact with
unmarried parents. Lack of clarity about the responsibilities of hospital staff in
communicating with unmarried parents, particularly as it concerns their role as potential
advocates of voluntary paternity acknowledgment, creates a disparity among hospitals in their
service to unmarried parents. Unless both child support and vital records agencies construct
a unified set of guidelines and inform their own personnel as well as birthing hospital staff,
there is less likelihood that parents will receive a clear, repetitive and singular message on
the voluntary acknowledgment process. OCSE should help States to determine the desired
role of hospital staff, and provide guidance to State child support agencies in educating staff
accordingly.

AGENCY ASSISTANCE TO HOSPITALS. Encourage State child support and vital records
agencies to more actively support hospital staff in implementing acknowledgment
programs. OCSE should provide technical assistance to child support and vital records
agencies which would focus on providing better service to hospitals, including aid in
addressing issues which create barriers to program services. OCSE should also create and/or
distribute sample hospital staff training and parent outreach materials, including interactive
methods, to give focus to State and hospital educational efforts. These educational materials
should be accompanied by instructions or ideas which would help States to ensure the
materials are actually used by hospital staff and distributed to unmarried parents. Because
many hospitals in States which provide materials do not use these resources, we know that
creation and perfunctory distribution to hospitals does not guarantee use.

AGENCY COMMENTS

We have worked in close partnership with OCSE throughout the conduct of this inspection.
Although we did not receive formal comments from ACF on our draft reports, they
demonstrated through their collaboration a general agreement with this report and the
companion reports. We worked with OCSE in developing a research methodology, provided
extensive briefings on study findings and created additional documents to meet agency needs.
We appreciate their cooperation and guidance, and will continue to work with them on the
issues raised in these reports. The Office of the Assistant Secretary for Planning and
Evaluation provided its general concurrence with both this report and the state
implementation report.




                                              20 

                                   ENDNOTES 


1. 	   A ‘birthing hospital’ is a hospital which has an obstetric care unit or provides
       obstetric services, or a birthing center associated with a hospital. (Federal
       Register, Vol. 59, No. 246).

2. 	   Within each stratum (high-Medicaid and low-Medicaid), we disproportionately
       sampled 20 birthing hospitals from each State. In a few cases, States had less
       than 20 birthing hospitals within each stratum. In those cases, we sampled all
       hospitals that met our criteria. Hospital survey responses were weighted to
       reflect the correct proportion of birthing hospitals within each stratum. All
       charts list the weighted percentages and the unweighted number of respondents
       in parentheses.

3. 	   Sample states include Alabama, Arkansas, California, Colorado, Florida,
       Illinois, Kentucky, Massachusetts, Michigan, Minnesota, Missouri,
       Pennsylvania, Texas, Virginia, and Washington.

4. 	   Child support and vital records agency surveys were received between April
       and August of 1996.

5.     Birthing hospital surveys were received between June and November of 1996.

6. 	   A number of hospitals listed more than one department as having primary
       responsibility, so percentages equal greater than one hundred. One hospital
       which shares responsibility between the obstetrics and medical records
       departments reports interdepartmental collaboration by using a paging system
       wherein obstetrics nurses alert the birth registrar when the father comes to
       visit mother and baby so the registrar may then introduce the paternity
       affidavit.

7. 	   When staff did express reluctance, they often cited lack of time to perform
       acknowledgment duties and occasionally wrote they believe paternity is too personal
       an issue to discuss with patients. One obstetric nurse reports that discussing paternity
       casts a “judgmental” shadow over her relationship with patients during the hospital
       stay.

8. 	   This difference could reflect the greater need for paternity acknowledgment services
       in these hospitals and the additional challenge this creates in training staff and
       allocating resources for the program.

9, 	   Regulations written to interpret OBRA ‘93 require States to “assess” each
       birthing hospital’s program on at least an annual basis (Federal Register, Vol.
       59, No. 246). This “assessment” requirement specifies only the collection of
       data on nonmarital births assisted and acknowledgments received per hospital.
       Following consultation with OCSE, we use in this report the phrase “monitor


                                               21
      hospital participation” to refer to this type of data collection. The term
      “hospital assessment” refers to a broader effort which would include the
      evaluation of hospital procedures as well as outcomes.

10.   One benefit of child support offices paying hospitals for the processing of
      acknowledgments is that the financial transaction required guarantees a natural count
      or tracking of acknowledgments per birthing hospital.

11.   At the time of data collection, one sample vital records agency played no role in
      administering its State’s voluntary acknowledgment program.

12.   Suburban hospitals are less likely to report their relationship with vital records
      agencies as effective or very effective (72 percent) contrasted with urban and rural
      hospitals (85 and 84 percent).

13.   Birthing hospital respondents were given latitude in identifying their child
      support office for our survey. For example, if they used the agency’s
      departmental name such as “Social Services” instead of “Child Support
      Office,” we credited them as having identified the correct office.

14.   Payments may be made up to $20 to birthing hospitals and other entities that
      provide prenatal or birthing services for each voluntary acknowledgment
      obtained pursuant to an agreement with the child support agency (Federal
      Register, Vol. 59, No. 246).

15.   One birthing hospital writes that their staff notaries were paid directly by hospital
      administration, each receiving $7 of the $20 fee charged to child support for their
      services in notarizing paternity affidavits.

16.   Occasionally hospital staff members were more proactive in conducting follow-up
      with mothers who did not acknowledge. For example, one respondent in California
      writes that he places phone calls to the mothers on a daily basis prior to birth
      registration to check for understanding and encourage acknowledgment, and another
      in Massachusetts writes that she makes appointments with parents to come back to
      sign the form.

17.   One hospital respondent reports that videos are a particularly important medium for
      parent outreach because the reading skills of some parents do not enable them to
      comprehend written materials.

18.   A number of hospital respondents emphasize the importance of prenatal outreach,
      writing that “Mothers listen to their prenatal care providers,” and “Parents often
      don’t know the dejinition of the word paternity when they come to the hospital.”

19.   Hospitals or prenatal care providers may distribute birth certificate worksheets prior
      to admittance, but at least one hospital respondent reports that these are rarely
      returned.



                                              22 

20.   The child support agency from one of the 15 sample states did not respond 

      when asked about notarization. 


21.   Not all State voluntary paternity acknowledgment affidavits include space for 

      separate notary seals for the mother and father’s signatures, although a 

      Paternity Affidavit Taskforce formed by OCSE following passage of 

      PRWOILA has recommended all States begin to allow space for two seals. 


22.   These registrars allow parents from one to ninety days to return to the hospital 

      for assistance in completing acknowledgments, with five days being the most 

      common grace period. In addition, parents in all sample States may bring the 

      form directly to the local or State vital records offices at any point following 

      the child’s birth. Hospital staff may need more complete information 

      regarding birth registration and paternity documentation so they may refer 

      parents who do not acknowledge during the hospital stay to the appropriate 

      public offices. 


23.   A few hospital respondents write they may occasionally risk violence when 

      communicating with parents, particularly when they tell the parents that notarization 

      of the paternity form will require the father to present identification or when the 

      husband is not the child’s father. One birth registrar contributed the following: “1 

      am finding a marked increase in complicated social circumstances. Often violent
      behavior is involved with these situations. There have been times I have felt
      endangered because of the reacti#onsof the parents. . . ”

24.   Sometimes the father may be labeled as creating a barrier by not visiting the hospital,
      when it is actually the mother who is refusing to allow him to participate and
      acknowledge paternity. One birth registrar writes, “If there is a strained relationship
      between parents, it is the mother who doesn’t want the father listed or who can
      actively prevent (the) father from acknowledging paternity by providing no
      information, ” and a child support agency paternity coordinator calls mothers, “the
      gatekeepers of paternity information. ”

25.   This finding replicates data from Table 4 that indicates 80 percent of child
      support agencies believe hospital staff do not recognize the importance of their
      role in communicating with unmarried parents.

26.   Regarding the length of hospital stay being too short to complete paternity
      acknowledgment, one obstetric nurse writes, “Mom and dad have too many emotional
      and educational demands at that time to focus on something they may perceive as
      unimportant. ”

27.   Some fathers may not visit during the mother’s hospital stay, but may come in on
      subsequent days to sign the acknowledgment before the birth is registered. However,
      these post-discharge appearances by fathers may not materialize as often as hospital
      staff would like. One respondent writes, “We have held many a certificate to the time
      limit because the mother thought she could get the dad to come in to sign. ”


                                             23
28. 	   High-Medicaid, urban hospitals again had the lowest rate of father
        participation, with only 37 percent reporting all or most fathers participate
        during labor and delivery contrasted with 48 percent of all other hospitals.




                                               24 

                                APPENDIX                     A

COMPARISON        OF SAMF’LE AND NON-SAMPLE               STATES

The fifteen States selected for the hospital-level analysis differed significantly from non-
sample States in both structural and perceptual ways based on child support responses (see
Table 1 below). The most striking differences deal with payment issues, barriers to
relationships with vital records and hospitals, monitoring of hospital participation, training
and training materials, and ratings of hospitals and acknowledgment programs.

Sample States are more likely to pay both vital records and hospitals for their help in
administering the hospital acknowledgement programs compared to non-sample States.
Specifically, sample States are over twice as likely (57 vs. 25 percent) to pay vital records
than those in the non-sample States and also to report that the payment improved their
service with vital records. Likewise, child support respondents from sample States are twice
as likely (79 vs. 37 percent) to believe they should pay vital records for their assistance than
non-sample States. In addition, 53 percent of sample States currently pay fees to hospitals
per acknowledgment compared with only 25 percent of non-sample States.
Child support agencies in sample States also differ in their relationship with both vital
records and hospitals. Fifty percent of them report no barriers in dealing with vital records
compared with 22 percent of non-sample States. However, only seven percent of the child
support agencies in the sample States find there are no barriers in their relationship with
hospitals as opposed to 29 percent of the non-sample States. Sample States are also more
likely (93 vs. 66 percent) to track the number of acknowledgments per hospital compared
with non-sample States and to monitor hospital participation (73 vs. 44 percent).

All of the child support agencies surveyed in the sample States provide training for hospital
staff compared with 86 percent of non-sample States and 87 percent provide on-site training
in comparison with 58 percent of non-sample States. In addition, 40 percent of sample State
child support agencies present a training video to the hospital staff compared with only 29
percent of non-sample States. Child support agencies in sample States also report more
proactive follow-up with hospitals, and are more likely to make a phone call or in-person
visit to hospitals to check on the supply of hospitals’ training materials. Sample States are
also at least twice as likely (79 vs. 39 percent) to provide an educational video for training
parents, in-person instruction for parents (71 vs. 32 percent), and training in other languages
(86 vs. 43 percent) than non-sample States.

Additionally, child support agencies are much less likely to rate the hospital’s ability (8 vs.
25 percent) and effort (8 vs. 31 percent) in administering the paternity acknowledgment
program as excellent compared with non-sample States. However, they find a greater
number of advantages in the program for parents.




                                              A-l
                                    Table 1: DATA OF CHILD SUPPORT             AGENCIES

                                                                               Sample     Non-Sample
Key Questions                                                                   states       states    Overall

Pavment Issues
Child Support Respondent            Believes They Should Pay Vital              79%          37%        49%
Records                                                                         (11)          (13)      (24)

Child Support Currently           Pays Vital Records                            57%          25%        34%
                                                                                 (8)          (9)       (17)

Payment     Has Improved         Service With Vital Records                     100%         44%        69%
                                                                                 (7)          (4)       (11)

Child Support Pays Fees to Hospitals            Per Acknowledgment              53%          25%        33%
                                                                                 (8)          (9)       (17)

Barriers to RelationsbiDs
Reported &        Barriers With:
Vital Records                                                                   50%          22%        30%
                                                                                 (7)          (8)       (15)

Hospitals                                                                        7%          29%        22%
                                                                                 (1)         (10)       (11)

Monitoring of Hosuital ParticiDation
Track # of Acknowledgments   Per Hospital                                       93%          66%        74%
                                                                                (14)         (23)       (37)

Monitor Hospitals           by Comparing   Acknowledgments     Received   to    73%          44%        53%
Births Assisted                                                                 (11)         (16)       (27)

TrainindTrainiw              Materials
Provided to Hospital Sta#
Child Support Training                                                         100%          86%        90%
                                                                                (14)         (31)       (45)

On-Site Training                                                                87%          58%        67%
                                                                                (13)         w9         (31)

Training    Video                                                               40%          29%        33%
                                                                                 C-9          (9)       (15)

Proactive Follow-up           With Hospitals:
By Phone                                                                        53%          30%        38%
                                                                                 (8)         (10)       (18)

In-Person                                                                       47%          27%        33%
                                                                                 (7)          (9)       (16)

Provided to Parents:
Educational     Video                                                           79%          39%        51%
                                                                                (11)         (12)       (23)

In-person     Instruction                                                       71%          32%        44%
                                                                                (10)         (10)       (20)




                                                              A-2 

                                 Table 1: DATA OF CHILD SUPPORT   AGENCIES

                                                                  Sample     Non-Sample
Key Questions                                                      states       states    Overall

Training/Trainim       Materials
Provided to Parents:                                               86%          43%        57%
Materials   in Other Languages                                      (12)         (13)      (25)

Ratings of Hospitals & Acknowledgment        Program
Rating of Hospital’s Ability:
Excellent                                                           8%          25%        20%
                                                                    (1)          (7)        (f3)

Rating of Hospital’s   Effort:
Excellent                                                           8%          31%        23%
                                                                    (1)          (8)        (9)

Advantages/Disadvantages of Program for Parents:
Find Five or More Advantages
                                                                   87%          67%        73%
                                                                   (13)         (24)       (37)

Find Only One Disadvantage                                         40%          44%        43%
                                                                    (6)         (16)       (22)




                                                   A-3 

                                      APPENDIX                             B

COMPARISON OF HOSPITAL SURVEY DATA BY URBANIZATION                                               AND
MEDICAID DISCHARGE RATES

Birthing hospital survey data from our 15 Sample States were analyzed by whether they are
located in urban, suburban or rural areas’ and by their Medicaid discharge rate.2 The
Medicaid discharge rate served as a proxy for identifying birthing hospitals which may have
a larger number of unmarried or low-income clients. We constructed four separate variables
for this analysis; one for urbanization; one for Medicaid discharge status; one comparing
high-Medicaid, urban hospitals to all others; and one comparing high and low-Medicaid
discharges by whether they are urban, rural or suburban birthing hospitals.

We find very few significant differences between these variables on key birthing hospital
survey questions. However, in a few areas differences existed worth noting because they
illustrate how hospital implementation varies based on location and type of patients served.
If an issue is not represented in this appendix, it can be assumed that no differences were
found pertaining to that issue as it concerns Medicaid discharge rates or urbanization.


Urban, Suburban, or Rural Stabs

Birthing hospitals vary significantly regarding notarization, especially on the availability of
notaries, its effect on the completion of acknowledgments and its overall impact, based on
urbanization (see Table 1). Intuitively many of these differences could be linked to a lesser
demand for paternity acknowledgment services and/or a smaller hospital staff to do
notarization in rural or suburban hospitals, as notaries are more likely to be available only
during weekday business hours in rural and suburban hospitals (68 and 64 percent) compared
to urban hospitals (55 percent). The availability of notaries is less likely to affect the
completion of acknowledgments in rural hospitals (48 percent) compared to suburban or
urban hospitals (65 and 63 percent). Suburban hospitals are more likely to report a positive
impact of notarization (46 percent) compared to both urban and rural hospitals (36 and 32
percent).

However, suburban hospitals are less likely to report their relationship with their vital
records agency as effective or very effective (72 percent) contrasted with urban and rural
hospitals (85 and 84 percent). Rural hospitals experience the greatest number of fathers
visiting the hospital (71 percent) compared to 68 percent of suburban hospitals and 61
percent of urban hospitals.



   I
       Urbanization   status is based on self-reported   information   by hospital respondent.

   2
       As previously mentioned, we sampled hospitals based on whether they had high-Medicaid           discharges
       (over 12 percent) or low-Medicaid discharges (less than 12 percent).


                                                         B-l
                   Table 1: HOSPITAL         DATA BY URBAN,             SUBURBAN   OR RURAL   STATUS

                                                                                    Urban     Suburban   Rural

 Notaries only available       during weekday business    hours                      55%        64%      68%
                                                                                     (45)        (39)    (106)

 Availability     of notaries affects completion   of acknowledgments                63%        65%      48%
                                                                                     (60)        (45)     (79)

 Reported       positive impact of notarization                                      36%        46%      32%
                                                                                     (33)        (39)     (53)

 Reported relationship with vital records agency                                     85%        72%      84%
 as effective or very effective                                                      (109)       (70)    (157)

 All or most fathers estimated        to come to the hospital                        61%        68%      71%
                                                                                     (75)        (69)    (129)




Medicaid Discharge Rate

Demographic factors comprise the most notable differences between hospitals with a high and
low-Medicaid discharge rate (see Table 2). High-Medicaid hospitals are more likely to be
public hospitals (68 percent) compared to low-Medicaid hospitals (60 percent). In addition,
39 percent of high-Medicaid hospitals are located in urban areas compared to 27 percent of
low-Medicaid hospitals. Far fewer (16 vs. 31 percent) high Medicaid hospitals are found in
suburban areas compared to low-Medicaid hospitals. However, little difference exists in
rural hospitals based on Medicaid discharge status, with 43 percent of high-Medicaid
hospitals located in rural areas compared to 41 percent of low-Medicaid hospitals. The
greatest need for offering acknowledgment services exists at high-Medicaid hospitals (60
percent) contrasted with low-Medicaid hospitals (51 percent). High-Medicaid hospitals are
also more likely to conduct prenatal education on paternity acknowledgment.




                                                                B-2 

                       Table 2: HOSPITAL    DATA BY MEDICAID   DISCHARGE   STATUS

                                                               Over 12%             Under 12%
                                                           Medicaid Discharge   Medicaid Discharge

  Ownership Type
  Public Hospital                                                 68%                  60%
                                                                  (146)                (144)

  Private Hospital                                                25%                  33%
                                                                   (W                  (71)

 Urbanization
 Urban Hospital                                                   39%                  27%
                                                                   (69)                (62)

 Suburban   Hospital                                               16%                 31%
                                                                   (29)                (67)

 Rural Hospital                                                   43%                  41%
                                                                   (91)                (96)

 Great or very great need at hospital for                         60%                  51%
 offering acknowledgment   services                               (128)                (133)

 Hospital conducts prenatal education on                          24%                  17%
 paternity acknowledgment   for parents                           (32)                 (24)



High-Medicaid,         Urban Hospitals

Although very few hospitals report the program difficult or very difficult to administer, high-
Medicaid, urban hospitals are more likely to report this compared to other hospitals (18 vs.
11 percent). See Table 3 for a complete listing. This difference could reflect the greater
need for paternity acknowledgment services in these hospitals and the additional challenge
this creates in training staff and allocating resources for the program. Father participation is
also less likely in high-Medicaid, urban hospitals compared to other hospital types. Only 52
of these hospitals report that all or most fathers come to the hospital compared to 70 percent
of all other hospitals. Only 37 percent of high- Medicaid, urban hospitals report all or most
fathers participate during labor and delivery contrasted with 48 percent of fathers from other
hospitals.




                                                  B-3 

I
                      Table 3: HOSPITAL            DATA BY HIGH MEDICAID,                 URBAN       STATUS

                                                                                     High Medicaid/
                                                                                     Urban Hospital            Other Hospital
                                                                                                                      TYPB

    Find program    difficult or very difficult to administer                               18%                        11%
                                                                                            (13)                       (30)

    Father participation
    All or most of fathers come to the hospital                                             52%                       70%
                                                                                            (37)                      (236)

    All or most of fathers participate   during the labor and delivery                      37%                       48%
                                                                                            (26)                      (163)



Medicaid Status by Urbanization

Hospitals also vary significantly based on a combination of their Medicaid discharge rates
and urbanization (see Table 4). Fifty-three percent of high-Medicaid, rural hospitals did not
consider themselves part of a Statewide paternity acknowledgment program contrasted with
only 15 percent of high-Medicaid, suburban hospitals.

High-Medicaid, suburban and urban hospitals are more likely to actively promote the idea of
paternity acknowledgment to parents as a perceived role of hospital staff (63 and 47 percent)
compared with low-Medicaid, urban hospitals (26 percent). The hospitals most likely to
report all or most fathers come to the hospital are low-Medicaid, rural hospitals (82 percent)
compared to only 52 percent of high-Medicaid, urban hospitals.


                   Table 4: HOSPITAL         DATA BY MEDICAID                 STATUS BY URBANIZATION

                                                         High-Medicaid         Hospital             Low-Medicaid      Hospital

                                                       Urban        Suburban        Rural     Urban        Suburban           Rural

    Reported they do not consider     themselves 
      33%             15%          53%       35%             38%            23%
    part of Statewide paternity 
                       (21)            (4)          (43)          (20)        (24)            (24)
    acknowledgment    program 


    Actively promote the idea of paternity 
            47%             63%          30%       26%             37%            39%
    acknowledgment     to parents as perceived 
        (32)            (17)         (29)          (18)        (27)            (38)
    role of hospital staff 


    All or most of fathers 
                            52%             77%          58%       70%             65%             82%
    come to the hospital 
                              (37)            (22)         (54)          (38)        (47)            (75)




                                                                B-4 

                                         APPENDIX                                 C


ESTIMATES         AND CONFIDENCE                   INTERVALS

The chart below summarizes the estimated proportions and the 95 percent confidence
intervals for key statistics presented in this report. This stratified random sample required
using SUDAAN3 to compute the correct standard errors for the estimates, based on weighted
data.


    Table 1: POINT ESTIMATES                AND CONFIDENCE                INTERVALS       FOR KEY QUESTIONS.                    ]
                                                                                               95% Confidence
 Question                                            Point Estimate                               Interval

 Proportion   of hospitals viewing     acknowledgment      program      as helpful or very helpful to parents.

                                                              70.0%                             65.0% - 75.0%

 Proportion   of hospitals rating acknowledgment        process as easy or very easy for parents to understand.

                                                              57.8%                             52.7% - 63.0%

 Proportion   of hospitals rating acknowledgment        program       as simple or very simple to administer.

                                                              49.8%                             44.7% - 54.9%

 Proportion of hospitals describing      their relationship     with the vital records agency in working         together as
 effective or very effective.

                                                              81.2%                             77.0% - 85.4%

 Proportion   of hospitals reporting    no barriers hinder their relationship       with the vital records agency.

                                                              75.9%                             71.6% - 80.3%

 Proportion of hospitals reporting no relationship         exists with the child support enforcement           agency in
 administering acknowledgment     program.

                                                              52.5%                             47.1% - 57.9%

 Proportion   of hospitals that do not consider     themselves        to be part of Statewide program.

                                                              34.5%                             29.4% - 39.5%

 Proportion   of hospitals reporting    an effective or very effective relationship       with child support agency.

                                                              73.0%                             66.2% - 79.8%

 Proportion   of hospitals currently    paid or have been paid in the past for processing           acknowledgments.

                                                              83.6%                                78.7% - 88.5%




   3 SUDAAN       - Release 7.11, Research      Triangle      Park, North Carolina:     Research    Triangle    Institute,   1997.


                                                               C-l
II   Table 1: POINT ESTIMATES                 AND CONFIDENCE                   INTERVALS            FOR KEY QUESTIONS.                    II

                                                                                                           95% Confidence
 Question                                                 Point Estimate                                      Interval

 Proportion of hospitals fmding the payment for processing acknowledgments                            made a moderate       or great
 difference in their hospital’s ability to administer the program.

                                                              76.6%                                         69.3% - 83.9%

 Proportion   of hospitals receiving     staff training     and educational      materials       on the acknowledgment         process.

                                                              71.8%                                         67.2% - 76.4%

 Proportion   of hospitals provided      brochures,     pamphlets,       or handbooks      for staff training.

II                                        I                   57.0%                        I                51.9% - 62.1%                 II

 Proportion of hospitals attempting       follow-up       contact with parents who leave the hospital without
 acknowledging paternity.

                                                               18.7%                                        14.7% - 22.7%


II
 Proportion of hospitals providing
 acknowledgment.
                                         parents with training           and educational       materials   on paternity
                                                                                                                                          II

II                                                            73.8%                                         69.3% - 78.4%                 II
 Proportion   of hospitals using brochures,       pamphlets,       or handbooks      to tram parents.

                                                              67.2%                                        62.4% - 72.1%



II
 Proportion of hospitals using birth certificate worksheets
 and paternity acknowledgment    with a staff member.

                                                              83.9%
                                                                           to fill out prior to discussing       birth registration


                                                                                                           79.8% - 88.0%
                                                                                                                                          II



 Proportion   of hospitals   reporting   no internal    barriers    to providing     paternity     acknowledgment         services.

                                                              54.4%                                        49.2% - 59.6%

 Proportion   of hospitals reporting     notarization     has a negative      impact on their acknowledgment               process.

                                                              23.5%                                         18.3% - 28.6%

 Proportion   of hospitals reporting     the availability    of notaries      affects the completion        of acknowledgments.

                                                              57.4%                                        51.8% - 63.0%

 Proportion   of hospitals   reporting   that notaries are available         only during weekday business            hours.

                                                              63.5%                                        58.9%    - 68.2%

 Proportion of hospitals reporting their role is to inform parents about the rights and responsibilities                          that
 accompany paternity acknowledgment.

                                          I                   75.5%                          I             71.0% - 80.0%




                                                                   c-2
II   Table 1: POINT ESTIMATES               AND CONFIDENCE            INTERVALS         FOR KEY OUESTIONS.

                                                                                              95% Confidence
 Question                                           Point Estimate                                Interval

 Proportion   of hospitals reporting    the father most often creates a barrier to acknowledging       paternity.

                                                         56.9%                                 51.0% - 62.7%

 Proportion of hospitals finding that new parents cohabitating or in a long relationship           strongly or very
 strongly influences parents who voluntarily acknowledge paternity at the hospital.

                                                         81.0%                                 76.7% - 85.4%

 Proportion of hospitals reporting      that all or most unmarried    fathers come to the hospital during the mother
 and baby’s hospital stay.

                                        I                67.7%                                 62.8% - 72.7%

 Proportion   of hospitals estimating    that all or most unmarried    fathers participate   during labor and delivery.

                                                         45.3%                                 40.4% - 50.2%

 Proportion of hospitals reporting that a bad relationship between the new parents strongly or very strongly
 influences parents who do not voluntarily acknowledge paternity at the hospital.

                                                         75.2%                                 69.9% - 80.5%




                                                          c-3
